        THE OFFICE OF JUSTICE PROGRAMS
       CONVICTED OFFENDER DNA SAMPLE
      BACKLOG REDUCTION GRANT PROGRAM

                         EXECUTIVE SUMMARY

      In early 2001, state and local DNA laboratories estimated that,
at the end of 2000, they held over 745,000 convicted offender DNA
samples that had been collected and were awaiting analysis. To aid in
reducing this national convicted offender DNA sample backlog, The
Office of Justice Programs Convicted Offender DNA Sample Backlog
Reduction Grant Program (Program), administered by the Department
of Justice, Office of Justice Programs (OJP), National Institute of
Justice (NIJ), was developed. The Program’s objective is to rapidly
accelerate the analysis of convicted offender samples collected by
states, thereby reducing and ultimately eliminating the national
convicted offender DNA sample backlog. OJP used approximately
$14.5 million appropriated by Congress under the Crime Information
Technology Act (CITA) to fund the first year of the Program. A total of
21 states applied for grants in the Program’s first year, with each state
receiving the entire amount requested. States used the funds to hire
contractor laboratories to analyze their backlogged convicted offender
samples so that the resultant DNA profiles could be entered into the
National DNA Index System (NDIS)1 and assist in solving crimes. This
national database is used by participating state forensic laboratories to
compare DNA profiles, with the goal of matching case evidence to
other previously unrelated cases or to persons already convicted of
specific crimes.

       While the Program is designed to span several years, our audit
focused on the first year of the Program, Fiscal Year (FY) 2000. We
audited the Program to: (1) assess the overall impact of the Program
on the national offender backlog; (2) assess the compliance of the
selected contractor laboratories with pertinent contractual
requirements and with the Quality Assurance Standards for Convicted
Offender DNA Databasing Laboratories (Offender QAS), effective
April 1, 1999; and (3) evaluate the adequacy of OJP’s administration

1
       NDIS is part of the national network of state and local DNA profile databases
known as the Combined DNA Index System (CODIS), and is maintained by the
Federal Bureau of Investigation. All records in NDIS are provided by participating
state and local DNA laboratories.
of the Program and monitoring of grantee activities, and determine the
extent to which selected grantees had administered their grant and
monitored their contractor’s activities in accordance with federal and
agency requirements and with the Offender QAS.

      Our audit work included reviewing OJP documentation,
conducting audits of three contractor laboratories,2 and conducting
audits of eight grantee state laboratories.3 At the time of our audits,
the eight grantee states that we audited had received approximately
69 percent of the FY 2000 Program funding, which accounted for the
funding of approximately 186,000 additional offender profiles to be
added to the national database. The three contractor laboratories
selected for audit received contracts from 14 of the 21 grantee states,
accounting for approximately 85 percent of the first year’s Program
funding.

       The Program funded the analysis of over 288,000 samples in its
first year. Funds were awarded based on a price of $50 per analyzed
sample, a baseline price developed by the National Commission on the
Future of DNA Evidence. As a condition of each grant, the grantee
states were required to analyze, at their own expense, a number of
no-suspect cases equal to at least 1 percent of the total number of
convicted offender samples for which they were funded. OJP officials
stated that the following scenarios qualified as no-suspect cases for
the purposes of meeting grant requirements: (1) no suspect was
identified in the case, (2) the named suspect was eliminated as a
result of the analysis, or (3) the named suspect could not be positively
identified due to the lack of a known comparison standard. The states
that we audited cited numerous impacts from the Program, including
the exoneration of a man who was wrongfully convicted of rape in
Texas and the identification of the man who had committed a series of
brutal attacks on elderly people in North Carolina.

      Despite the Program’s results mentioned above, gauging the
progress that OJP has made toward achieving the Program’s mission of
ultimately eliminating the national offender backlog is complicated by
the fact that the national offender backlog is continually fluctuating,

2
      We audited Myriad Genetic Laboratories in Salt Lake City, Utah; The Bode
Technology Group in Springfield, Virginia; and ReliaGene Technologies in
New Orleans, Louisiana.
3
       We audited state laboratories in California, Michigan, North Carolina, Ohio,
Texas, Utah, Virginia, and Washington.

                                        – ii –
and is greatly influenced by changes in state offender DNA collection
statutes. State laws determine the offenses for which a convicted
offender is required to submit a DNA sample for testing, thereby
controlling the number of samples that state DNA laboratories are
obligated to analyze. During 2001, 7 states expanded their laws to
require DNA samples from all felons, which increased the number of
states with such legislation to 14 at the end of 2001. The impact of
these legislative expansions can be substantial. For example, with the
addition of only one non-violent offense to its statute, Florida’s annual
intake of samples increased from approximately 8,000 to
approximately 48,000 samples in one year.

      Consequently, to gauge the impact of the first year of the
Program apart from the fluctuations in the national offender backlog,
we analyzed the productivity statistics at the eight grantee states
selected for audit for the 1-year periods before and during the
Program grants. In addition, we reviewed documentation to determine
whether each of the eight grantee states had administered their grants
in accordance with Program requirements and adequately monitored
contractor activities per the Offender QAS.

       At each of the three selected contractor laboratories, we
reviewed policies, procedures, and other documentation to determine
if the laboratory was in compliance with the Offender QAS and other
Program requirements. We issued three separate audit reports that
detailed the results of these contractor laboratory reviews.4

      We also reviewed OJP’s oversight of the Program to determine if
grants were made in accordance with applicable legislation, and
whether OJP adequately monitored grantee progress and compliance
with Program requirements. In addition, we reviewed OJP’s progress
toward achieving each of the four performance measurements
established for the first year of the Program.

Summary of Findings

      Our audit disclosed that while the Program funded the analysis
of over 288,000 convicted offender samples that were previously
backlogged, it is difficult to determine whether the national offender
backlog is actually being eliminated. This determination is complicated
by factors including the continuing changes to state statutes requiring

4
      See Appendix I for additional contractor laboratory report information.

                                      – iii –
greater numbers of people to provide DNA samples and the challenges
to the states to respond to this increased demand. In addition, while
the Program grants increased the volume of complete offender profiles
uploaded to NDIS, two of the eight grantee states we audited showed
no increase in productivity in the 1-year period during the grant that
we reviewed, due to delays in uploading contractor data to NDIS.

      Overall, we concluded that the selected grantee states met the
no-suspect match requirement, adequately monitored their
contractors, and generally administered their grants in accordance
with Program requirements. In addition, the three contractor
laboratories that we reviewed materially complied with the Program
requirements and the Offender QAS. However, we found that:

•    OJP needs to improve its monitoring of the Program’s progress
     toward achieving its stated performance measurements. While
     OJP was tracking the Program’s progress, OJP officials were not
     gathering the correct data and statistics necessary to accurately
     monitor and report that progress. Specifically, two performance
     measurements established standards for an increase in samples
     being uploaded to NDIS. However, to monitor the achievement
     of these measurements, OJP was gathering data on the number
     of offender samples being returned to the grantee states by the
     contractors, which is not necessarily the same as the number of
     offender profiles being uploaded to NDIS. We do not believe
     that one set of data can be substituted for the other to
     determine the achievement of the Program’s first year
     performance measurements.

•    OJP needs to develop and implement written procedures to
     ensure that grant officials follow up when grantees fail to comply
     with grant requirements or fail to file grant reports on a timely
     basis. We conducted two reviews at OJP. During the first
     review, we noted that 14 of the 21 Program grantees either did
     not submit required reports or submitted reports after required
     deadlines. Further, we noted that 15 of the 21 Program
     grantees did not submit required quality assurance test results
     to OJP. Officials at OJP were initially unsure of the status of
     these reports or quality assurance results. In our judgment, if
     Program reports are not submitted and reviewed, OJP cannot
     adequately track or monitor grantee progress toward achieving
     the Program’s goals and objectives. In addition, if issues with
     quality assurance samples are noted and not reported to OJP,

                                – iv –
      any corrective action necessary cannot be made on a timely
      basis. This could potentially have an adverse impact on the
      integrity of the national DNA database. In response to our
      review, OJP initiated informal procedures to follow up on
      unsubmitted or late reports and quality assurance results. When
      we followed up on our initial findings at OJP, all previously
      missing periodic and quality assurance reports had been
      submitted. Further, while we noted that 9 of the 21 grantees
      submitted reports that were due subsequent to our initial review
      between 12 and 80 days late, there was evidence of informal
      follow up by OJP in each grant file.

      To address these deficiencies, we made two recommendations to
OJP. We recommended that OJP ensure that data being collected and
monitored accurately gauges whether the Program is meeting its
mission, and develop and implement written procedures to follow up
when grantees fail to comply with grant requirements or fail to file
grant reports on a timely basis. The OJP response to our findings and
recommendations appears in Appendix V of this report.

       The audit results, which include information previously identified
in individual contractor laboratory reports, are discussed in greater
detail in the Findings and Recommendations section of this report.
Our audit objectives, scope, and methodology, and a list of contractor
laboratories and grantee states audited appear in Appendix I.




                                  –v–
                            TABLE OF CONTENTS
                                                                                            Page
INTRODUCTION .................................................................................. 1
       The Combined DNA Index System.....................................................1
       The Office of Justice Programs Convicted Offender DNA Sample
            Backlog Reduction Grant Program ............................................2
       Estimates of the National Offender Backlog ........................................5
FINDINGS AND RECOMMENDATIONS ..................................................... 7
       1.     Program Impact and Achievement
              of Performance Measurements .................................................7
              Impact of the Program on the National Offender Backlog.............7
              Impact of Program Grants on State Productivity .......................10
              Program Performance Measurements ......................................15
              Recommendation..................................................................19
       2.     Contractor Compliance with Quality Assurance Standards..........20
              Myriad Genetic Laboratories, Inc. ...........................................20
              The Bode Technology Group ..................................................22
              ReliaGene Technologies, Inc. .................................................23
              Recommendations ................................................................23
       3.     OJP Oversight and Grantee Compliance with Program
              Requirements ......................................................................24
              OJP Oversight and Grantee Reporting .....................................25
              Timeliness ...........................................................................26
              Compliance with Offender Quality Assurance Standards ............27
              No-Suspect Match Requirement .............................................28
              Recommendation..................................................................28
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ............... 29
       DNA Identification Act of 1994 ........................................................29
       DNA Analysis Backlog Elimination Act of 2000 ..................................30
       Crime Information Technology Act ..................................................30
STATEMENT ON MANAGEMENT CONTROLS ........................................... 31
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....................... 32
APPENDIX II - GLOSSARY OF TERMS AND ACRONYMS............................ 36
APPENDIX III - AUDIT CRITERIA ......................................................... 40
      Federal Legislation ........................................................................40
      Quality Assurance Standards ..........................................................40
      Program Grant Solicitation .............................................................43
APPENDIX IV - FACTORS INFLUENCING THE BACKLOG........................... 44
      DNA Technology ...........................................................................44
      Potential Resource Issues...............................................................45
      State Legislation ...........................................................................46
      Role of Sample Collection Agencies .................................................46
APPENDIX V – OJP COMMENTS ON THE AUDIT RECOMMENDATIONS ........ 47
APPENDIX VI - OFFICE OF THE INSPECTOR GENERAL AUDIT DIVISION
     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
     TO CLOSE REPORT.................................................................... 50
                           INTRODUCTION
       The Department of Justice’s (Department) strategic plan states
that a key objective is to improve the crime fighting and criminal
justice administration capabilities of state, tribal, and local
governments. Preventing and reducing crime by assisting these
governments in improving their law enforcement capabilities is also a
strategic goal of the Department. Because the use of DNA profiles
(computerized records containing DNA characteristics used for
identification) has become an increasingly important crime fighting
tool, the Department has assisted governments in implementing,
expanding, or improving their use of DNA technology.

       The use of DNA by law enforcement has increased dramatically
in recent years and many states have enacted or expanded their
DNA-related legislation. Between 1988 and 1998, all 50 states
enacted DNA collection statutes. These statutes require that an
offender convicted of certain offenses give a DNA sample that will be
analyzed and the resulting profile will be added to the state’s convicted
offender DNA database. If local resources are insufficient for the
volume of incoming convicted offender samples, a backlog of
unanalyzed samples can result. Consequently, the Department
initiated grant programs to strengthen DNA capabilities in state and
local laboratories, including The Office of Justice Programs Convicted
Offender DNA Sample Backlog Reduction Grant Program (Program), in
an effort to reduce the number of convicted offender samples awaiting
analysis.

The Combined DNA Index System

      As detailed in a prior Department of Justice Office of the
Inspector General (OIG) audit report,5 the Federal Bureau of
Investigation (FBI) created a hierarchy of DNA profile indexes, the
Combined DNA Index System (CODIS), as a tool to further the use of
DNA in solving crime. CODIS is a national DNA information repository
maintained by the FBI that allows state and local crime laboratories to
store and compare DNA profiles from crime-scene evidence and from
convicted offenders. The goal of the system is to match case evidence
to other previously unrelated cases or to persons already convicted of
other crimes. Currently, CODIS contains two primary databases: the

5
       The prior OIG audit report, titled “The Combined DNA Index System,” Report
No. 01-26, was issued in September 2001.
convicted offender database and the forensic database (which contains
the case evidence profiles). DNA profiles are stored in a database with
a similar classification (i.e., convicted offender profiles in the convicted
offender database). As of December 31, 2001, there were 829,775
convicted offender profiles and 33,131 forensic profiles in the National
DNA Index System (NDIS).

       State and local crime laboratories that participate in CODIS
perform DNA analysis on specimens from crime-scene evidence and
from convicted offenders. The FBI provides participating laboratories
with special software that organizes and manages the DNA profiles and
related information. The software also enables participating
laboratories to compare DNA profiles and notifies the appropriate
laboratories when two or more DNA profiles match. The Forensic
Science Systems Unit, part of the FBI’s Laboratory Division, was
directly involved in the development of all aspects of CODIS and
continues with its oversight.

The Office of Justice Programs Convicted Offender
DNA Sample Backlog Reduction Grant Program

      The Program, administered by the Office of Justice Programs
(OJP), National Institute of Justice (NIJ), was developed to assist
states in reducing or eliminating their offender sample backlogs so that
an increased number of profiles could be uploaded to the national DNA
database. The mission of the Program is to reduce and ultimately
eliminate the convicted offender DNA sample backlog awaiting analysis
and entry into the national database.

      Congress appropriated $30 million in FY 2000 under the Crime
Identification Technology Act (CITA) for grants to states to reduce
their DNA backlogs and for the Crime Laboratory Improvement
Program (CLIP). Of that amount, approximately $14.5 million was
used to fund the first year of the Program. For the first year, grant
funds were awarded to states based on submitted proposals, and the
states then contracted with private laboratories for the analysis of
convicted offender DNA samples.6


6
       The Program changed slightly in its second year (FY 2001). OJP awarded
funds directly to “pre-approved” contractor laboratories and the states then sent
convicted offender samples to the laboratories of their choice. One effect of this
change was the elimination of the delays caused by the state procurement processes
experienced in the first year of the Program, as identified in Finding No. 3.


                                      –2–
      The flow of grant funds from OJP to the 21 states receiving the
grants and then to the seven contractor laboratories is illustrated in
the following graphic:

                 Grant Program Summary – FY 2000




             Office of Justice Programs / National Institute of Justice




      Myriad              The Bode            ReliaGene           Lifecodes
      Genetic             Technology          Technologies        Corporation
      Laboratories        Group



                 Fairfax             Cellmark            GeneScreen
                 Identity            Diagnostics
                 Laboratories

      Source: OJP Program records


      A total of 21 states applied for grants in the Program’s first year,
and all received the funding for which they applied, totaling




                                      –3–
approximately $14.5 million.7 These states then contracted with
seven private laboratories to complete the analysis of approximately
288,000 offender samples, as summarized in the following table:

           PROGRAM GRANTEES AND CONTRACT LABORATORIES

           Grantee        Grant Funds        Samples        Contract Laboratory
            State          Awarded           Funded                Selected
1    Texas                 $1,745,550        34,911      Myriad Genetic Labs
2    California             1,500,000        30,000      Myriad Genetic Labs
3    New York               1,447,400        28,948      Myriad Genetic Labs
4    Ohio                   1,330,700        26,614      Myriad Genetic Labs
5    Arizona                  201,250         4,025      Myriad Genetic Labs
6    Minnesota                200,000         4,000      Myriad Genetic Labs
7    New Jersey               168,650         3,373      Myriad Genetic Labs
8    Utah                     150,000         3,000      Myriad Genetic Labs
9    Virginia               1,800,000        36,000      Bode Technology Group
10   Michigan                 717,900        14,358      Bode Technology Group
11   North Carolina           700,000        14,000      Bode Technology Group
12   Pennsylvania             653,100        13,062      Bode Technology Group
13   Oklahoma                 250,000         5,000      Bode Technology Group
14   Washington             1,343,100        26,862      ReliaGene Technologies
15   Illinois                 481,650         9,633      Lifecodes Corporation
16   New Mexico               477,000         9,540      Lifecodes Corporation
17   Florida                  400,000         8,000      Fairfax Identity Labs
18   Kansas                   369,900         7,398      Fairfax Identity Labs
19   Massachusetts            351,000         7,020      Cellmark Diagnostics
20   Alaska                    80,650         1,613      GeneScreen
21   Arkansas                  55,500         1,110      GeneScreen
       TOTALS             $14,423,350       288,467
Source: OJP Program records


      The chart on the following page illustrates the distribution of
grant funds among the contractor laboratories hired by the grantee
states. As the chart illustrates, the top three laboratories contracted
with states that received 85 percent of the total grant funds.




7
       Funds were awarded based on a price of $50 per sample to be analyzed, a
baseline price developed by the National Commission on the Future of DNA Evidence.
States then negotiated with the contractor laboratories to obtain the best per sample
price. Any resultant savings were used for the analysis of additional samples, were
returned to OJP, or were to be used for other allowable laboratory improvements in
accordance with applicable CLIP guidelines.


                                       –4–
               5%    2% 1%                                  Myriad $6,743,550
         7%
                                                            Bode $4,121,000
    9%
                                                   47%
                                                            ReliaGene $1,343,100

                                                            Lifecodes $958,650

                                                            Fairfax $769,900

         29%                                                Cellmark $351,000

                                                            GeneScreen $136,150




Source: OJP Grant Tracking Information


Estimates of the National Offender Backlog

      While the mission of the Program is to reduce and ultimately
eliminate the national offender backlog, measuring whether it is being
accomplished is complicated by the fact that the national offender
backlog is constantly fluctuating. One of our sources for estimating
the magnitude of the national offender backlog was a recommendation
made in 1999 by the National Commission on the Future of DNA
Evidence (Commission) to the Attorney General.

       The Commission, which is comprised of officials from both the
public and private sectors, was established in March 1998 at the
request of the Attorney General to provide recommendations on the
current and future use of DNA technology in the criminal justice
system. One of the working groups within the Commission was tasked
with considering the national offender backlog and the means by which
it could be reduced. The Commission determined that there were
substantial numbers of convicted offender DNA samples collected by
states that had not been analyzed and entered into the national DNA
database. Further, the Commission concluded that the states should
be able to address the factors8 that were causing each state’s offender
backlog if additional funds were provided for outsourcing. In its 1999
recommendation, the Commission estimated the national backlog of
convicted offender DNA samples at over 700,000.

8
       See Appendix IV for examples of factors that influence a laboratory’s ability to
analyze the DNA samples it receives.


                                         –5–
      Another source of national offender backlog estimates has been
surveys conducted by the FBI. According to OJP officials, the
estimates of the national offender backlog used by OJP in their
Program planning were obtained from the FBI’s 1999 Laboratory
Survey, in which state and local laboratory management reported
various productivity and technology statistics. The most recent
laboratory survey results available from the FBI were from the 2000
Laboratory Survey, which was conducted in early 2001. Survey
recipients were asked to report the number of backlogged samples
that were in their laboratories at the end of 2000 and to provide
estimates of the number of backlogged samples they expected to have
at the end of 2001. The FBI survey placed the national backlog of
offender samples at the end of 2000 at 745,821, while the estimates
for 2001 indicated a national offender backlog of 681,470 samples.




                               –6–
        FINDINGS AND RECOMMENDATIONS
1.    Program Impact and Achievement of Performance
      Measurements

      We determined that the Program has been successful in funding
      the analysis of over 288,000 previously backlogged offender
      samples, and some data suggests that the national offender
      backlog is declining. However, because of continuing changes to
      state statutes requiring greater numbers of people to provide
      DNA samples, and the challenge to the states to respond to this
      increased demand, it is difficult to determine whether the
      national offender backlog will be eliminated. In addition, while
      the Program grants helped to increase the volume of complete
      offender profiles uploaded to NDIS, two of the eight grantee
      states we audited showed no increase in productivity. Finally,
      although our audit results supported OJP’s claim of meeting two
      of the four FY 2000 Program performance measurements, we
      could not determine whether the remaining two performance
      measurements had been met because OJP was not tracking the
      correct data to substantiate that the performance measurements
      had been achieved.

Impact of the Program on the National Offender Backlog

       As described in the Introduction of this report, the first year of
the Program funded the analysis of over 288,000 backlogged offender
samples in 21 states. In addition, estimates provided by state and
local laboratories in early 2001 indicated that the backlog was
decreasing.

       However, determining the exact reduction in the national
offender backlog in the first year of the Program was precluded by the
fact that the national offender backlog is constantly fluctuating, due
primarily to the expansion of state DNA collection statutes. The more
conviction offenses that require the collection of a sample, the larger
the analysis workload is for the states, and the higher the possibility
that the states will encounter increasing backlogs. As previously
mentioned, since 1988, every state has passed a DNA collection
statute. In recent years, states have expanded those collection
statutes, with 2001 seeing the most dramatic increase in statute
expansions.




                                  –7–
       According to data provided to OJP,9 a total of 35 state
legislatures introduced DNA expansion bills in 2001, up from 19 states
in 2000 and 10 in 1999. Even more significant, as illustrated below,
was the number of state legislatures that proposed requiring the
collection of a DNA sample from all felons, one of the broadest
collection standards being used in the United States.


           2000                                       2001
     5 all-felons bills                        25 all-felons bills
     were introduced                           were introduced




             Introduced all-felons legislation in 2001
             Introduced all-felons legislation in 2000
             Already require DNA samples from all felons
        Although not all proposed expansion legislation was enacted,
bills in 22 states passed in 2001, up from 8 states in 2000 and 6 states
in 1999. Further, the number of states with “all-felons” legislation has
doubled, increasing from 7 states at the end of 2000, to 14 states by
December 2001.

       In order to gauge how these expansions might impact the
national backlog, we interviewed laboratory management during our
eight state grantee audits. From these interviews we obtained
estimates from three grantee states for how statute expansions might
affect their backlogs in 2001 or 2002. We also gathered information
from a fourth grantee state that had statistical data on the impact of
the statute expansion in their state in 2000. Their responses illustrate
how legislative changes can impact a state’s backlog of offender
samples:

9
      Data was provided to OJP by Smith Alling Lane, Attorneys at Law.



                                     –8–
•    According to the Florida Department of Law Enforcement
     Tallahassee CODIS Laboratory sample intake and tracking
     system, the addition of one non-violent offense of burglary to
     Florida’s statute produced an immediate increase of 40,000
     samples, from 8,000 samples for state fiscal year ending
     June 2000, to approximately 48,000 samples for state fiscal year
     ending June 2001. The CODIS Laboratory’s Administrator stated
     that this increase reflects the fact that the statute was
     retroactive, and he expects collections for state fiscal year
     ending June 2002 to stabilize at approximately 24,000 samples,
     which is an ongoing annual 16,000 sample increase. The CODIS
     Administrator stated that by the time Florida’s phased-in
     expansion to all felons is complete, they will be receiving
     between 50,000 and 60,000 samples per year.

•    According to the laboratory management at the Michigan State
     Police CODIS Laboratory in Lansing, the 2001 change in
     Michigan’s statute requiring collection of DNA samples from all
     felons is expected to produce an immediate backlog of between
     20,000 and 70,000 samples in 2002, depending on the efficiency
     and timeliness with which the correctional facilities are able to
     collect the samples.

•    The CODIS Administrator of the Texas Department of Public
     Safety CODIS Laboratory in Austin stated that he does not
     expect the 2001 expansion of the Texas statute to all felons to
     increase their backlog for three reasons: (1) the expansion is
     conditional on funding to analyze the samples, (2) the expansion
     is not retroactive, and (3) the collection agencies are already
     collecting approximately 5,000 samples per month, the
     maximum possible with existing resources.

•    Management of the Washington State Patrol Seattle Crime
     Laboratory estimated that, although Washington’s current law
     authorizes DNA collection only from persons convicted of certain
     violent crimes, their backlog would increase by over 90,000
     samples if Washington enacts legislation that requires DNA
     collection from all felons, as is proposed for 2002.

     The variety of these responses illustrates that while most
expansions equate to a considerable increase in a state’s analysis
burden, not every state is affected the same by a statute expansion.
Overall, many variables help determine how much of an impact



                                –9–
expanded legislation has on a state’s backlog, including whether
legislative changes are retroactive; whether additional appropriations
accompany the statute change; whether statutes apply to juveniles in
addition to adults; whether statutes apply to probationers and
parolees; and which agencies are tasked with the collection of the
samples and the compliance level of those collections.

       Therefore, based upon the increasing frequency of state
legislative changes, all of which will likely increase the number of
samples requiring analysis, and the general consensus of the states we
interviewed that such increases stand to drastically increase their
backlogs, we question whether the backlog reductions accomplished
under the Program will be sufficient to reduce and ultimately eliminate
the national offender backlog.

Impact of Program Grants on State Productivity

      Preliminary information gathered in our audit fieldwork raised
the question as to how administering the grants and the resulting
contracts would affect the resources of the grantee state laboratories.
Specifically, we wanted to determine whether the time taken away
from the laboratories’ normal in-house analysis (for selecting the
contractor, shipping and receiving samples and data, reviewing the
data, and completing the requirements of the Quality Assurance
Standards for Convicted Offender DNA Databasing Laboratories
(Offender QAS), effective April 1, 1999, for contractor oversight)
would counteract the benefits of the outsourcing.

      Consequently, we reviewed CODIS upload documentation for
each of the eight grantee states audited to determine how the
Program grants affected the number of complete10 profiles that those
states were able to upload to CODIS. Specifically, we compared each
state’s average number of complete profiles uploaded monthly during
the 1-year period prior to the Program grant to the average number of
complete profiles uploaded monthly during the 1-year period after the
award of the Program grant (limited to one year since the original
grant award period was one year). By comparing the productivity of


10
        A profile’s completeness is determined by the number of loci (see glossary)
that were analyzed and for which results were obtained. The FBI requires 13 STR
(see glossary) loci for offender samples to be included in NDIS. Therefore, although
some grantee states we audited were performing partial in-house analysis (8 or 9
loci), we did not include these partial profiles in our productivity calculations.



                                      – 10 –
the pre-grant award year and the post-grant award year, we intended
to demonstrate the possible impact of the Program.

       We determined that five of the eight grantee states we audited
demonstrated a marked increase in total complete profiles analyzed
and uploaded to NDIS in a timely manner after receiving their Program
grant. These increases were inclusive of both samples analyzed
in-house as well as samples analyzed by the contractor laboratory.
However, because of difficulties in efficiently addressing the Offender
QAS requirements, two of the eight states we reviewed (California and
Michigan), experienced no increase in productivity in the 1-year period
following the Program grant award. Both of these states showed no
uploads of complete offender profiles to NDIS either before the
Program grant or during the Program grant period reviewed.11 In
addition, a third state, Ohio, experienced significant delays in their
ability to upload profiles returned to them by their contractor. The
change in the average number of profiles being uploaded monthly to
NDIS before the grant and after the grant is demonstrated for each
state in the graph on the following page:




11
        We did note that California and Michigan both processed CODIS uploads
immediately following the 2-year period we reviewed, as discussed in the remainder
of this section.



                                     – 11 –
              Average Profiles Uploaded Monthly to CODIS

   6000


                                                 5,005
   5000


                                                                  3,999
   4000



   3000
                                        2,300

   2000                                                                    1,849


                              1,104
   1000                                                                   791
                                                                 559
                            305                 396
                                                           208
           0 0      0 0                0                 23
      0
           CA       MI        NC       OH        TX       UT      VA      WA
            Year Preceeding Grant (September 99 - August 00)
            Year During Grant (September 00 - August 01)
     Source: CODIS System Printouts for uploads at each state


      The increases experienced by the states could be attributable to
one of three causes: (1) an increase in the grantee laboratory’s
in-house productivity; (2) the effect of the contractor’s assistance,
under the Program grant, on the laboratory’s productivity; or (3) a
combination of both of these causes. Therefore, to determine the
cause of the increased productivity, we reviewed the laboratory’s
records of samples analyzed in-house during the contract period. We
concluded from this analysis that for five of the six states showing
increased productivity (North Carolina, Ohio, Texas, Virginia, and
Washington), any increase was due to the work being performed by
the contractor, since the states had no increase in in-house
productivity during the contract period. The remaining state, Utah,
was able to increase in-house productivity during the contract period,
in addition to the increase contributed by the contractor. However,
the majority of Utah’s total increase was attributable to the
contractor’s work.




                                      – 12 –
       In looking further at the two states showing no productivity
 increase during our audit period, we noted that the contractor
 laboratories for both states had analyzed samples during our audit
 period, but the profiles had not been uploaded to CODIS during the
 audit period. Most states we audited appeared to be uploading
 contractor data monthly, maintaining a relative pace with incoming
 contractor data. However, for the two states showing no increase in
 productivity (California and Michigan), we noted that as many as 10
 months passed between when sample data was received from the
 contractor and when profiles were uploaded to CODIS, with the first
 upload occurring after our 2-year review period. The delays between
 when profiles were received from the contractors and when uploads to
 CODIS occurred are illustrated in the following chart:



                             Profiles Received vs. Uploaded
                                California, Michigan, Ohio
22,000


19,800


17,600


15,400


13,200


11,000


 8,800


 6,600


 4,400


 2,200


    0
         Sep-00 Oct-00 Nov-00 Dec-00 Jan-01 Feb-01 Mar-01 Apr-01 May-01 Jun-01   Jul-01 Aug-01

            CA Received          MI Received          OH Received          OH Uploaded
 Source: CODIS System Printouts for uploads at each state


       As stated previously, neither California nor Michigan uploaded
 any profiles to CODIS during the 2-year period we reviewed. Further,
 although Ohio began receiving sample data from the contractor as
 early as November 2000, the first sizeable upload was not processed



                                           – 13 –
until April 2001, after which point uploads generally kept pace with
sample data received. There are no standards or criteria governing
how much time states are permitted before they upload contractor
data to CODIS. However, profiles that have not been uploaded to
NDIS cannot have a nationwide impact in solving crimes.

      A key aspect to note regarding the states’ ability to upload
contractor data to CODIS is that there is always lag time between
when the data is received from the contractor and when the data is
uploaded by the state to CODIS. This is true because, after receiving
the contractor data, states must address the requirements placed
upon them by the Offender QAS prior to uploading the data to CODIS.
These requirements include, but are not limited to: (1) random
reanalysis of samples; (2) visual inspection and evaluation of
results/data; (3) inclusion of quality control samples; and
(4) conducting on-site visits to the contractor facility. However, as
detailed below and in Appendix IV, states vary in their ability to
address the Offender QAS in an efficient manner for a variety of
reasons, including limitations of staffing, funding, facilities, and
computer systems.

      For example, California laboratory management stated that
several factors hindered their ability to efficiently address the Offender
QAS requirements and upload the contractor data to CODIS in a timely
manner. These factors included personnel turnover and understaffing,
computer memory limitations, as well as complications with the
compatibility between their in-house sample tracking system and their
contractor’s organization of the data. We were provided with
documentation substantiating these problems. California was able to
process its first CODIS upload of approximately 20,714 complete
offender profiles in September 2001, which included samples analyzed
in-house and by the contractor.

      For Michigan, we determined that a few interrelated factors
hindered its ability to efficiently address the Offender QAS
requirements and upload the contractor data to CODIS. These factors
centered on the Michigan laboratory’s decision to complete random
reanalysis on 10 percent of the samples analyzed by the contractor.
According to laboratory management, this decision was made because
this was a new outsourcing contract and they wanted to perform as
many quality checks as possible to assure themselves that the
contractor’s work was acceptable. Although the laboratory was
allowed to make this decision under the Offender QAS and under OJP



                                 – 14 –
grant award guidelines, the Michigan laboratory’s resources were not
sufficient to complete the reanalysis of the large volume of samples at
a pace sufficient to keep up with the contractor data being returned.
Consequently, the laboratory fell behind in the reanalysis, as seen in
the previous chart, and were unable to upload the data to CODIS until
the reanalysis was complete. Ultimately the Michigan laboratory
addressed the issue by reducing its in-house percentage of reanalysis
and having the contractor perform the remaining reanalysis needed to
meet the 10 percent level. Michigan was able to process its first
upload of 2,916 complete offender profiles to CODIS in
September 2001.

        The Ohio CODIS Administrator provided information about their
difficulty in efficiently addressing the Offender QAS requirements,
particularly the requirement for visual inspection of results and data.
The CODIS Administrator stated that she is responsible for performing
the 100 percent visual inspection of the contractor data, and that it
currently takes her approximately 3 hours to review data from 100
samples, depending on the complexity of the samples. She added that
initially it took her longer to get oriented to the organization of the
contractor’s data and to develop a system for efficient review. In
addition, the review of the data is only part of her daily responsibilities
in the laboratory. Given the volume of profiles being received from
the contractor, shown in the previous chart, it would have taken the
CODIS Administrator several weeks each month to review the profiles.

      As discussed in the following section, the delays in uploading
samples to the national database by California, Michigan, and Ohio led
us to question the methods by which OJP addressed two of its
performance measurements.

Program Performance Measurements

      In response to the Government Performance and Results Act,
which requires agencies to develop strategic plans that identify their
long range goals and objectives, and establish annual plans that set
forth corresponding annual goals and indicators of performance, OJP
developed performance measurements for the Program. These
measurements were consistent with the overall strategic plan for the
Department of Justice. The stated mission for the Program is to
reduce and ultimately eliminate the convicted offender DNA sample
backlog awaiting analysis and entry into NDIS. This mission directly
supports the following Department strategic plan goal and objective:



                                  – 15 –
•    Goal: To prevent and reduce crime and violence by assisting
     state, tribal, and local community-based programs.

•    Objective: To improve the crime fighting and criminal justice
     administration capabilities of state, tribal, and local
     governments.

      To monitor the progress toward achieving the desired Program
outcomes and results, OJP developed and tracked four performance
measurements. We reviewed OJP’s progress toward achieving each of
the following four performance measurements for the first year of the
Program.

1.   Number of labs demonstrating improved access to external
     capabilities or increased laboratory capacities.

     OJP established a goal of assisting all states that applied for
     grants, thereby improving those states’ access to external
     capabilities. A total of 21 states applied for approximately
     $14.5 million in funding to outsource the analysis of
     approximately 288,000 convicted offender samples. Supporting
     documentation revealed that OJP was able to fully fund all 21
     requests, thereby meeting this performance measurement.

2.   Number of samples analyzed with 13 STR DNA markers entered
     into the national database.

     To address this measurement, OJP collected monthly statistics
     from each of the 21 states detailing the number of samples
     returned to the states by their contractors. These statistics
     revealed that over 288,000 samples had been analyzed by the
     contractor laboratories and returned to the grantee states as of
     the end of our fieldwork in November 2001. However, OJP was
     not tracking the number of Program-funded profiles that had
     actually been entered into NDIS, as required by the performance
     measurement, because grantee states were reporting “samples
     received” from the contractor rather than “profiles uploaded” to
     NDIS.

     OJP officials stated that they had not asked the states to report
     the Program-funded profiles uploaded to NDIS because that data
     would take more time to report than the number of samples
     received back from the contractor. Further, they indicated that



                               – 16 –
     they believed that the number of samples returned to the states
     served as a sufficient measure of the number of profiles
     available for upload to NDIS, since the only delay between
     samples received and profiles uploaded was the time that it took
     the states to address the Offender QAS requirements for
     oversight of the contractor’s data.

     Because profiles that have not been uploaded to NDIS cannot
     have a nationwide impact in solving crimes, we agree with OJP’s
     decision to make profiles uploaded to NDIS a performance
     measurement for the Program. We also believe that it is
     reasonable to assume that sample data received back from the
     contractors will eventually be uploaded to NDIS. However,
     based upon the data presented in the preceding section
     regarding delays encountered by California, Michigan, and Ohio
     in uploading the data received back from the contractor, we do
     not agree that tracking “samples received” serves as a sufficient
     substitute for tracking “profiles uploaded” in addressing the
     performance measurement for FY 2000. Therefore, we conclude
     that OJP could not substantiate that this performance
     measurement had been achieved because the appropriate data
     was not being collected and monitored.

3.   Number of states that have experienced an increase in the
     number of samples they have contributed to the national
     database.

     OJP reported that all 21 states receiving FY 2000 Program
     funding had experienced an increase in the number of complete
     offender profiles they had contributed to the national database,
     since all 21 states used the funds to outsource the analysis of
     convicted offender samples. Based upon our audit results, we
     agree with OJP that all 21 states used the funds to outsource the
     analysis of convicted offender samples. However, based upon
     the data presented in the preceding section regarding delays
     encountered by California, Michigan, and Ohio in uploading data
     to NDIS, we do not agree that samples funded can be
     substituted for the number of profiles contributed to the national
     database when addressing 1-year performance measurements.
     Therefore, we conclude that OJP could not substantiate that this
     performance measurement had been achieved because the
     appropriate data was not being collected and monitored.




                               – 17 –
4.     Number of DNA samples processed in cases where there is no
       known suspect.

       As a condition of each grant award, each state was required to,
       at their own expense, analyze no-suspect cases equal to
       1 percent of the offender samples for which they were receiving
       Program funding. We were able to determine that grantee
       states had reported to OJP, as part of the monthly statistics
       collected by OJP, that more than 2,890 no-suspect cases had
       been analyzed. Therefore, OJP stated that it had met its fourth
       performance measurement. For the states we audited, we were
       able to confirm that the states’ assertions regarding their
       completion of their no-suspect match requirement were
       supported by appropriate documentation as detailed within
       Finding No. 3 of this report.

      Our audit results supported OJP’s claim of meeting FY 2000
Performance Measurement Nos. 1 and 4. However, OJP was not
tracking the correct data to substantiate that it had met Performance
Measurement Nos. 2 and 3; therefore, we could not determine from
OJP records that those measurements had been achieved.

      In addition to assessing whether OJP had met the performance
indicators it had established, we also assessed whether there were
other performance measurements that could be established that would
provide decision makers within the Department and in Congress with
information on whether the Program was meeting its mission to reduce
and ultimately eliminate the convicted offender DNA sample backlog
awaiting analysis and entry into NDIS. We identified two areas that
we think OJP should consider:

•      OJP did not include the number of CODIS hits12 and
       investigations aided13 involving Program-funded DNA profiles in
       its performance measurements for FY 2000 of the Program. OJP
       officials stated that since it takes a period of time between when
       profiles are uploaded to NDIS and when those profiles begin

12
       A “hit” is a match between two DNA profiles in the database, linking a
convicted offender to a previously unsolved case, linking two previously unlinked
unsolved cases, or a combination thereof.
13
       “Investigations aided” is the primary measuring unit used by the FBI to
quantify the success of CODIS. An investigation is aided when a DNA match through
CODIS either identifies a potential suspect or links separate crimes together.



                                       – 18 –
     impacting investigations, they did not include these metrics in
     the Program’s first year performance measurements. However,
     OJP did track hits and investigations aided as reported by
     grantees from Program-funded profiles for FY 2000. According
     to state-reported information collected by OJP, the 21 grantee
     states had 773 hits and 587 investigations aided as of
     December 2001.

•    During our review, we noted that the Program’s mission is to
     reduce and ultimately eliminate the national offender backlog.
     However, none of the Program’s performance measurements
     specifically monitor the reduction and/or elimination of the
     national offender backlog. In this report, we acknowledge that
     the national offender backlog is a fluctuating number due to
     expansions in state statutes that increase the numbers of
     convicted offender DNA samples that are collected, and due to
     each state’s ability to respond to these increases. Further, we
     understand that OJP does not control whether every state with
     an offender backlog actually applies for grant funds to help
     reduce that backlog. However, without a performance
     measurement that specifically assesses the Program’s ultimate
     impact on the national offender backlog, OJP cannot measure
     the Program’s progress in achieving its mission to reduce and
     ultimately eliminate the convicted offender DNA sample backlog.
     This measure may also be useful for estimating future Program
     funding needs.

Recommendation:

      We recommend that the Assistant Attorney General, Office of
Justice Programs:

1.   Ensure that the data being collected and monitored accurately
     gauges whether the Program is meeting its mission to reduce
     and ultimately eliminate the convicted offender DNA sample
     backlog awaiting analysis and entry into NDIS.




                               – 19 –
2.     Contractor Compliance with Quality Assurance
       Standards

       We assessed three Program contractor laboratories’ compliance
       with standards governing their DNA analysis contracts with
       Program grantees. These three contractors received contracts
       from 14 of the 21 grantees, accounting for 85 percent of the first
       year’s Program funding. We determined that the contractors
       generally complied with these standards, with a few exceptions
       related to the Offender QAS for equipment calibrations and
       continuing education documentation.

       The first year of the Program was designed so that the states
receiving grants were responsible for screening and selecting
contractors that met certain criteria. In general terms, states were to
select contractors that could perform DNA analysis of offender samples
(1) in compliance with the Offender QAS, and (2) in a manner
consistent with the requirements placed upon contractors, through the
states, by the Solicitation and attached certifications. Further
information on this criteria can be found in Appendix III.

      The 21 states that received FY 2000 Program grants contracted
with a total of 7 private contractor laboratories, as set forth in the
Introduction section of this report. Of these seven contractor
laboratories, we selected for audit the three contractors that accounted
for the majority of the grant funding and the majority of samples to be
analyzed: Myriad Genetic Laboratories, Inc., located in Salt Lake City,
Utah; The Bode Technology Group, located in Springfield, Virginia; and
ReliaGene Technologies, Inc., located in New Orleans, Louisiana.

    The exceptions identified for each of the contractors audited are
summarized below.

Myriad Genetic Laboratories, Inc.

      For our audit of Myriad Genetic Laboratories, Inc. (Myriad), we
considered 130 elements14 of the Offender QAS. We found that Myriad
complied with the Offender QAS except for the following two areas.

14
        For each of the contractors audited, we considered all 130 elements of the
Offender QAS but did not test for compliance with elements that were not applicable
to that contractor’s DNA activities. See Appendix III for a description of the 130
elements.




                                      – 20 –
Missing Calibrations

       Offender Standard 10.2 states that a laboratory shall identify
critical equipment and shall have a documented program for the
calibration of instruments and equipment. Although Myriad complied
with this standard by identifying critical equipment and by having a
documented calibration program, we determined that Myriad had not
followed that calibration program for one of the ten critical equipment
items we reviewed. The item, a balance, was not calibrated between
November 1999 and June 2001, a span of 19 months, during which 3
semi-annual calibrations should have been performed.

      Myriad management stated that the missing calibrations were
due to a misunderstanding in which the technician responsible for the
calibrations thought that the frequency of required calibration had
changed from semi-annual to “at use,” when actually the reverse had
occurred. The misunderstanding was identified due to our request to
see the calibration logs. The item was calibrated while we were on site
and laboratory personnel noted no problems with the instrument.

       According to Myriad management officials, Myriad's
comprehensive central tracking system monitors the performance of
all aspects of the process and would have been able to detect analysis
problems caused by a faulty balance had there been any. Supporting
documentation for how the tracking system identifies analysis
problems was reviewed by the auditors. Because the balance was
found to be within accuracy limits and because the tracking system
appears to have been capable of detecting analysis problems caused
by an inaccurate balance, we concluded that the only deficiency was
not performing the calibration at the required intervals.

Missing Documentation of Equipment Tests

      Offender Standard 10.3.1 states that new critical instruments
and equipment, or critical instruments and equipment that have
undergone repairs or maintenance, shall be calibrated before use.
Offender Standard 10.3.2 states that written records or logs shall be
maintained for the maintenance service performed on instruments and
equipment, and that such documentation shall be retained in
accordance with federal or state law. Although Myriad personnel do
maintain logs as described in Offender Standard 10.3.2, the logs did
not provide sufficient documentation to demonstrate that two of the
ten critical equipment items reviewed had been calibrated after their



                                – 21 –
most recent repairs. Myriad management stated that the equipment
had been calibrated before being put back in use, as required by
Offender Standard 10.3.1, and the fact that no further problems arose
with the items since then served as evidence that the items were fit
for continued use. However, they acknowledged that the logs did not
reflect the calibration work that had been performed to approve the
items for continued use.

The Bode Technology Group

      For our audit of The Bode Technology Group (Bode), we
considered 130 elements of the Offender QAS. We found that Bode
complied with the Offender QAS except for one area of noncompliance
described below.

Continuing Education Documentation

      Offender Standard 5.1.3.1 states that the technical manager,
CODIS manager, and analysts must stay abreast of developments
within the field of DNA typing by reading current scientific literature
and by attending seminars, courses, professional meetings, or
documented training sessions or classes in relevant subject areas at
least once per year. This requirement is listed as a substandard of
Offender Standard 5.1.3, which requires a continuing education
program. In reviewing Bode’s policies and procedures, we noted that
Bode had a continuing education program that mirrored the
requirements of Offender Standard 5.1.3.1. In addition, Bode had a
system of documentation that accounted for the attendance of
appropriate personnel at seminars, courses, and meetings. However,
the laboratory did not have a mechanism in place to document that
appropriate personnel, such as the technical manager and analysts,
had completed the required reading of scientific literature.

       Laboratory management was able to produce a routing slip that
was attached to an article from a recent scientific journal, on which the
technical manager had signed off. However, any of his reading
completed in previous years, as well as any reading completed by
analysts, was not documented. Laboratory management stated that
all appropriate personnel are actively engaged in reading scientific
literature that is routed through the laboratory and that the laboratory
subscribes to a variety of journals that would make such reading
material immediately available to the staff. However, they




                                 – 22 –
acknowledged that there was no documentation to substantiate that
the requirement was met.

ReliaGene Technologies, Inc.

      For our audit of ReliaGene Technologies, Inc. (ReliaGene), we
considered 130 elements of the Offender QAS. We found that
ReliaGene complied with the Offender QAS except for one area of
noncompliance described below.

Missing Calibrations

       Offender Standard 10.2 states that a laboratory shall identify
critical equipment and shall have a documented program for the
calibration of instruments and equipment. Although ReliaGene
complied with this standard by identifying critical equipment and by
having a documented calibration program, ReliaGene staff did not
comply with their own calibration program for one of the ten
equipment items reviewed. ReliaGene's calibration program requires
that the temperature verification system be calibrated annually.
Documents reviewed indicated that this system was placed into service
on July 22, 1999. However, no calibrations subsequent to the initial
calibration were performed until August 22, 2001, the date our audit
revealed the deficiency. This was a span of 25 months.

      ReliaGene’s management stated that the missing calibrations
were due to oversight and immediately calibrated the instrument while
we were on site. ReliaGene personnel noted that the instrument was
within acceptable ranges when compared with a National Institute of
Standards and Technology thermometer, thereby indicating there were
no problems with the instrument.

Recommendations:

       We issued separate audit reports15 to OJP for each of the three
contractor laboratories audited. Because OJP is providing oversight
while these laboratories are responding to our audit findings through
their respective grantee states, we will not provide additional
recommendations to address contractor laboratory audit findings in
this report.


15
      See Appendix I for the report numbers and additional information.



                                     – 23 –
3.    OJP Oversight and Grantee Compliance with
      Program Requirements

      OJP’s management controls over grantee compliance with
      Program requirements need improvement. In May 2001, we
      conducted reviews of OJP documentation for all 21 Program
      grantees. We also conducted in-depth fieldwork at 8 of those
      Program grantees. We determined that 14 of the 21 grantees
      either did not submit required reports or submitted reports after
      the deadlines. Further, we noted that 15 of the 21 grantees did
      not submit required quality assurance test results to OJP.
      Finally, 14 of the 21 grantees reviewed did not comply with
      Program requirements relating to timeliness. In our judgment, if
      Program reports are not submitted and reviewed, OJP cannot
      adequately track or monitor grantee progress toward achieving
      the Program’s goals and objectives. In addition, if issues with
      quality assurance samples are noted and not reported to OJP,
      any corrective action necessary cannot be made on a timely
      basis. This could potentially have an adverse impact on the
      integrity of the national DNA database. However, we did note
      that OJP had implemented informal follow-up procedures as a
      result of our findings by the time our subsequent audit work was
      conducted in November 2001.

      We reviewed OJP’s oversight of the Program to determine if
grants were made in accordance with applicable legislation, and
whether OJP adequately monitored grantee progress and compliance
with Program requirements. In addition, we reviewed eight selected
grantees’ oversight of their contractor laboratories to determine if they
were monitoring them in accordance with the Offender QAS, and
whether the grantees were complying with key Program requirements.

       The Crime Information Technology Act (CITA) provided for
grants to state governments to promote compatibility and integration
of national, state, and local systems for criminal justice purposes and
for the identification of sexual offenders. Further, the CITA specified
allowable uses for the grant funds, including programs: (1) to
establish, develop, update, or upgrade the capabilities of forensic
science programs and medical examiner programs related to the
administration of criminal justice; (2) leading to accreditation or
certification of individuals and departments, agencies, or laboratories;
and (3) relating to the identification and analysis of DNA. We found
that all Program grants were made to state governments for the



                                 – 24 –
purpose of outsourcing the testing of convicted offender DNA samples,
and thus were made in accordance with the CITA.

       OJP developed and issued Program requirements in its
Solicitation for CODIS STR Analysis of States’ Collected Convicted
Offender DNA Samples (Solicitation), dated March 2000. The
Solicitation specified general grant guidelines and restrictions, as well
as more specific requirements. Grantee states were required to certify
that they were in compliance with certain provisions of the DNA
Identification Act of 1994, including the Offender QAS relating to the
oversight of contractors. In addition, grantees were required to
adhere to timeliness requirements and deadlines relating to the
selection of contractors, the submission of DNA samples to contractors
for testing, and reporting requirements.

OJP Oversight and Grantee Reporting

       Program grantees were required to submit quarterly financial
status reports, semi-annual progress reports, and quality assurance
test results. These reports contain information necessary for OJP to
track and monitor grantee progress, such as contractor selection
information, dates of sample shipment, and other details relating to
contractor oversight that would allow OJP to ensure grantee
compliance with Program requirements and with the Offender QAS.
During our initial review in May 2001, we noted that 14 of the 21
grantees either did not submit required progress or financial status
reports, or submitted the reports an average of 133 days after the
required deadlines. At that time, OJP was unsure of the status of
these reports. Further, while OJP did have an informal mechanism for
tracking grant progress, no system of follow up was in place to ensure
that required reports were submitted.

      Between our initial review in May 2001 and our follow-up review
in November 2001, an additional progress report and two additional
financial status reports were due from each grantee. In response to
our initial review results, OJP had initiated informal follow-up
procedures for unsubmitted or late reports through the development of
a report tracking spreadsheet. Further, there was evidence of e-mails
in grantee files showing that OJP was monitoring these reports and
contacting grantees to remind them of the missed deadlines. Further,
our follow-up review revealed that all previously missing reports had
been submitted. While we noted that 9 of the 21 grantees submitted




                                 – 25 –
reports that were due subsequent to our initial review between 12 and
80 days late, there was evidence of OJP follow up in each grant file.

       Program grantees were also required to submit quality assurance
test results to OJP. To ensure the accuracy of profiles received from
the contractor laboratories, Program requirements specified that each
state submit quality assurance samples (i.e., samples with unknown
values to the contractor but with known values to the state), with the
first group of convicted offender samples sent to the contractor
laboratory. Further, the results of these quality assurance samples
were required to be reported to OJP within 30 days of receipt of the
results.

       During our initial review in May 2001, we noted that 15 of the 21
grantees did not submit the quality assurance test results to OJP as
required. At that time, OJP officials were unsure of the status of the
quality assurance results. In response to our initial review, OJP
instituted an informal follow-up process with the grantee states.
During our second review at OJP in November 2001, we noted that all
grantee states had submitted the required quality assurance test
results subsequent to our initial review. While no significant quality
assurance issues were reported by these 15 states, it is important for
OJP to be aware of these results so that adequate grantee oversight
and timely resolution of any quality issues can occur.

       In our judgment, quality assurance tests are a key control to
ensure the accuracy of DNA test results. Because this was a new
program and many of these private contractor laboratories were being
utilized by the grantee states for the first time, the results of these
quality assurance tests were crucial. If quality assurance deficiencies
had been noted and not reported to OJP, timely oversight by OJP could
not have been accomplished.

Timeliness

      Program grantees were required to ensure they complied with
two timeliness guidelines. The first guideline required grantees to
expedite their state procurement process to ensure that a contractor
laboratory was selected and the first group of convicted offender
samples was provided to that laboratory within 120 days of the OJP
grant award notification letter. Preliminary data gathered at OJP in
May 2001 indicated that 6 of 21 Program grantees did not meet this
requirement, providing their first group of offender samples to their



                                – 26 –
contactor laboratory between 12 and 65 days late. Of the six grantees
not meeting this requirement, we gathered further data to determine
the cause at the two grantees that were among the eight grantees we
audited. While both grantees followed their state procurement
processes, which was also required by the Program, the lengthy
procurement process contributed to delays at one grantee state
totaling 159 days. Further, procurement delays and other laboratory
challenges caused a second grantee to not provide their first group of
samples to the contractor laboratory until 185 days after the date of
the OJP grant award notification letter. Changes made to the Program
in its second year essentially eliminated the types of procurement
delays states experienced in the first year of the Program.

      A second timeliness guideline required grantees to ensure the
contractor laboratory analyzed and reported back the results of the
analysis of each group of convicted offender samples within 30 days of
receipt. From preliminary data gathered at OJP in May 2001, we
determined that the contractor laboratories for 10 of 21 Program
grantees did not meet this requirement for returning the first group of
samples, returning them between 2 and 56 days late. Of the ten
grantees not meeting this requirement, we gathered further data to
determine the cause at the three grantees that were among the eight
grantees we audited.

        One delay was due to an unforeseen genetic variation that
occurred in a particular section of the DNA being analyzed, affecting
the contractor’s ability to process the samples. This issue was
resolved, but caused the first group of results to be reported 84 days
after shipment. The second delay was caused by differences in how
initial results were being reported by one contractor and how the state
wanted the results to be reported. This was also resolved, but
resulted in the first group of results being reported 45 days after
shipment. The third delay was the result of a manufacturer’s untimely
release of software for a new piece of equipment being brought into
operation at the contractor laboratory, which caused the first group of
results to be reported 49 days after shipment. All of these one-time
delays were satisfactorily explained, and in our judgment, did not
negatively impact the overall Program effectiveness.

Compliance with Offender Quality Assurance Standards

     Section 17 of the Offender QAS requires any laboratory using
subcontractors to establish review procedures to verify the integrity of



                                 – 27 –
data received from the subcontractor. This section specifies that these
review procedures include: (1) random reanalysis of samples,
(2) visual inspection and evaluation of results, (3) inclusion of quality
control samples, and (4) on-site visits.

      We reviewed data and documentation maintained by each of the
eight grantees we audited to ensure that contractor review procedures
had been established and followed in accordance with the Offender
QAS. We noted no deficiencies relating to grantee compliance with the
Offender QAS pertaining to contractor review and oversight.

No-Suspect Match Requirement

      Instead of requiring a monetary local match, Program guidelines
required grantees to analyze, at their own expense, no-suspect cases16
equal to at least 1 percent of the total number of convicted offender
samples for which grant funds were awarded. This analysis was
required to be conducted within the grantee’s laboratory system. All
eight grantees reported that they had met or exceeded their match
requirement as of the conclusion of our audit fieldwork.

      Each grantee provided us with a list of cases that they had
analyzed to meet the grant match requirement. Using each list, we
either randomly or judgmentally selected a total sample of 113 cases
out of a total of 2,414 cases, and reviewed documentation to ensure
that each case met the following Program requirements: (1) the
analysis had to occur after October 1, 1999, and (2) each case had to
qualify as a no-suspect case. All 113 cases that we reviewed met the
Program requirements.

Recommendation:

      We recommend that the Assistant Attorney General, Office of
Justice Programs:

2.     Develop and implement written procedures to ensure that OJP
       grant officials follow up when grantees fail to comply with grant
       requirements or fail to file grant reports on a timely basis.

16
       OJP stated that the following scenarios qualified as no-suspect cases for the
purposes of meeting grant requirements: (1) no suspect was identified, (2) the
named suspect was eliminated as a result of the analysis, or (3) the named suspect
could not be positively identified due to the lack of a known comparison standard.




                                       – 28 –
         STATEMENT ON COMPLIANCE WITH
             LAWS AND REGULATIONS
      As required by Government Auditing Standards, we tested OJP
records and grant documents pertaining to the Program to obtain
reasonable assurance about OJP’s compliance with laws and
regulations, that, if not complied with, we believe could have a
material effect on the administration of the Program. Compliance with
laws and regulations applicable to qualifying Program applicants for
grant eligibility and to the administration of the Program grants is the
responsibility of OJP management. An audit includes examining, on a
test basis, evidence about compliance with laws and regulations. The
pertinent legislation and the applicable regulations it contains are as
follows:

DNA Identification Act of 1994

•     authorized the establishment of a national index of: (1) DNA
      identification records of persons convicted of crimes,
      (2) analyses of DNA samples recovered from crime scenes, and
      (3) analyses of DNA samples recovered from unidentified human
      remains;

•     specified several standards for those laboratories that contribute
      profiles to the national index system, including proficiency
      testing requirements for DNA analysts and privacy protection
      standards related to the information in the national index
      system;

•     established criminal penalties for individuals who knowingly
      violate the privacy protection standards and provided that access
      to the national index system was subject to cancellation if the
      quality control and privacy requirements were not met; and

•     limited the use of grant funds to carrying out all or a substantial
      part of a program or project intended to develop or improve the
      capability to analyze DNA in a forensic laboratory. The federal
      share of grant funds was limited to 75 percent of the total cost
      of the project.




                                 – 29 –
DNA Analysis Backlog Elimination Act of 2000

       This Act provided for grants to be made to states to carry out,
for inclusion in CODIS, DNA analyses of samples taken from
individuals convicted of qualifying state offenses. This Act was signed
into law on December 19, 2000, but no funds were appropriated in
time to fund the first year of the Program.

Crime Information Technology Act

•     provided for grants to be made to state governments to promote
      compatibility and integration of national, state, and local
      systems for criminal justice purposes and for the identification of
      sexual offenders; and

•     detailed general allowable grant fund uses including "for
      programs to establish, develop, update, or upgrade the
      capabilities of forensic science programs and medical examiner
      programs related to the administration of criminal justice,
      including programs leading to accreditation or certification of
      individuals and departments, agencies, or laboratories, and
      programs relating to the identification and analysis of
      deoxyribonucleic acid...."

                            ♦      ♦      ♦
       Our tests revealed that OJP complied with all applicable
legislation.




                                 – 30 –
    STATEMENT ON MANAGEMENT CONTROLS
      In planning and performing our audit of the Program, we
considered OJP’s management controls for the purpose of determining
our auditing procedures. In addition, we evaluated the process used
by OJP to award grants under the Program and to monitor grantees.
The evaluation of OJP was not made for the purpose of providing
assurance on the management control structure as a whole; however,
we noted certain matters that we consider to be reportable conditions
under generally accepted government auditing standards.

       Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the
management control structure that, in our judgment, could adversely
affect OJP’s ability to administer the Program grants. We noted one
deficiency relating to OJP’s monitoring and reporting of the Program’s
performance measurements, discussed in Finding No. 1. We also
noted one deficiency concerning OJP’s oversight of grantees, discussed
in Finding No. 3. However, we did not consider these deficiencies to
be a result of systemic management control issues.

      Because we are not expressing an opinion on OJP’s management
control structure as a whole, this statement is intended solely for the
information and use of OJP in administering the Program.




                                – 31 –
                                                      APPENDIX I
     OBJECTIVES, SCOPE, AND METHODOLOGY
      The objectives of our audit of the Program were:

1.    to assess the overall impact of the Program on the national
      offender backlog;

2.    to assess the compliance of the selected contractor laboratories
      with pertinent contractual requirements and the Offender QAS;
      and

3.    to evaluate the adequacy of OJP’s administration of the Program
      and monitoring of grantee activities, and determine the extent to
      which selected grantees had administered their grant and
      monitored their contractor’s activities in accordance with federal
      and agency requirements, and with the Offender QAS.

     We conducted our audit in accordance with Government Auditing
Standards. We included such tests as were considered necessary to
accomplish the audit objectives.

      The audit generally covered the period from the award of the
Program’s first year of grants in August 2000 through the completion
of audit fieldwork in November 2001. However, for comparison
purposes, we gathered pre-award productivity statistics for selected
grantee states for one year prior to the Program grant award. In
addition, we limited our post-award productivity statistics to one year
following the grantee’s receipt of their Program grant, since the
Program grants were intended to last one year.

        Audit work was conducted at OJP, at the top three high-dollar
contractor laboratories, and at selected Program grantees contracting
with those three contractor laboratories. Further, our work at the
contractor laboratories was limited to the portion of their personnel,
facilities, and documentation that involved the analysis of offender
samples for Program grantees.

       To assess the overall impact of the Program on the national
offender backlog, we reviewed grantee productivity and CODIS upload
statistics for both pre-award months (up to one year prior to the
Program grant award) and for post-award months (up to one year



                                 – 32 –
                                                       APPENDIX I
after the Program grant award), reviewed documentation of the
attainment of Program goals and performance measurements; and
interviewed key grantee and OJP personnel.

      We audited the following three contractor laboratories and issued
a separate report to OJP for each:

•     Myriad Genetic Laboratories, Inc., Salt Lake City, Utah
      Audit Report No. GR-80-01-016, issued July 2001

•     The Bode Technology Group, Springfield, Virginia,
      Audit Report No. GR-80-01-018, issued September 2001

•     ReliaGene Technologies, Inc., New Orleans, Louisiana,
      Audit Report No. GR-80-01-019, issued September 2001

     For each of these contractor laboratories we assessed
compliance with the Offender QAS by:

•     interviewing laboratory officials responsible for maintaining each
      state’s offender samples and data, assuring compliance with
      quality assurance standards, and maintaining records on DNA
      employees, such as qualifications, training, and proficiency
      testing;

•     touring the laboratory facilities to physically verify each
      contractor’s adherence to its own policies on security and
      evidence control, as well as to observe compliance with various
      QAS issues; and

•     reviewing contractor offender samples and DNA-related policies,
      as well as supporting documentation for compliance with these
      policies; including, but not limited to, interpretation of data,
      frequency of equipment calibration and maintenance, facility
      security, sample handling, validation records, proficiency testing,
      and corrective action.

      We also assessed the contractor’s compliance with OJP Program
requirements, including the timely return of data to their client states,
by interviewing selected contractor management and reviewing
documentation of data shipments.




                                 – 33 –
                                                      APPENDIX I
      To evaluate OJP’s oversight of the Program grantees, we
interviewed key personnel and reviewed grantee tracking files and
electronic records. This review focused on the Program’s performance
measurements, the timely filing of all required reports by the grantees,
and the monitoring of grantee progress in completing their contracts.

      We selected eight Program grantees to audit. Generally, our
selection was based on the amount of grant funds each grantee
provided to the three contractor laboratories we audited, with two
exceptions. First, Ohio was substituted for New York after the events
on September 11, 2001. Second, for efficiency purposes, Utah was
selected because the laboratory was located in close proximity to
Myriad Genetic Laboratories in Salt Lake City. The eight Program
grantees we audited were:

•     California Department of Justice Bureau of Forensic Services
      DNA Databank Program, Berkeley, California

•     Michigan State Police, Forensic Science Division, DNA/Biology
      Unit, East Lansing, Michigan

•     North Carolina State Bureau of Investigation Crime Laboratory,
      Raleigh, North Carolina

•     Ohio Bureau of Criminal Investigation and Identification,
      London, Ohio

•     Virginia Division of Forensic Science Forensic Biology Section
      Central Laboratory, Richmond, Virginia

•     Texas Department of Public Safety CODIS Laboratory, Austin,
      Texas

•     Utah Department of Public Safety Bureau of Forensic Services
      Forensic Biology Section, Salt Lake City, Utah

•     Washington State Patrol Crime Laboratory, Seattle, Washington

     Of these grantees, our audit fieldwork in North Carolina and
Texas was not conducted on-site, but included the use of previous OIG
CODIS laboratory audit results, with the remainder of the fieldwork



                                 – 34 –
                                                     APPENDIX I
conducted via the provision of documentation and other information.
For each of these audits, we assessed compliance with the contractor
oversight provisions of the Offender QAS by reviewing documentation
of on-site visits, data review, random re-analysis, and quality control
sample results. To assess the grantees’ compliance with OJP’s
solicitation requirements, we interviewed key grantee personnel
regarding changes to their state’s DNA collection statute and regarding
factors influencing the completion of their Program grant. We also
reviewed supporting documentation for state procurement practices
and contractor selection (except in North Carolina and Texas), and for
5 percent of the no-suspect cases counted by each grantee toward
their 1 percent match requirement. For the match requirement, we
set sampling limits of a minimum of 10 cases and a maximum of
20 cases for each grantee audited.




                                – 35 –
                                                       APPENDIX II
       GLOSSARY OF TERMS AND ACRONYMS
ASCLD/LAB: the American Society of Crime Laboratory
Directors/Laboratory Accreditation Board is one of the organizations
that provides accreditation for labs. The organization performs a
thorough inspection of the laboratory before it grants accreditation.

Candidate Match: when the CODIS software identifies what appears
to be a match between two or more profiles, that match is called a
candidate match. The candidate, or potential match, must then be
verified by looking at the match details (produced by the software on a
“Match Report”). If the candidate match is verified, then it is treated
as a true match and it is considered a hit. Candidate matches that are
determined to not be real matches are more common with the RFLP
method than the STR method, since the STR method is more
discriminating.

CODIS Administrator: the person at each laboratory that is
responsible for the administration and security of the laboratory’s
CODIS. The position can also be referred to as CODIS Manager or
CODIS Custodian. The CODIS Administrator is required by the QAS for
each laboratory with a convicted offender database, although all
CODIS labs should have someone filling that role.

Combined DNA Index System (CODIS): provides a framework for
storing, maintaining, tracking, and searching DNA specimen
information. CODIS refers to the entire system of DNA databases
(convicted offender database, forensic database, victim database, etc.)
maintained at the national, state, and local levels. CODIS currently
consists of three distinct levels: the National DNA Index System,
State DNA Index System, and Local DNA Index System.

Convicted Offender Database: consists of DNA records from
persons who have been convicted in state or local courts of crimes
that, according to state legislation, warrant inclusion in that state’s
convicted offender database.

DeoxyriboNucleic Acid (DNA): DNA is found in almost all living
cells, and carries the encoded information necessary for building and
maintaining life. This encoded information is what makes each person
an individual. Human DNA consists of two strands of molecules that



                                  – 36 –
                                                    APPENDIX II
wrap around each other to resemble a twisted ladder whose sides are
connected by rungs of chemicals called bases. There are four kinds of
these chemical bases (also called nucleotides), and the order in which
they are arranged is called the DNA sequence. It is this unique
sequence that is determined when a DNA sample is typed.

DNA Profile: a set of DNA identification characteristics, i.e., the
particular chemical base at the various DNA locations (loci), which
permit the DNA of one person to be distinguishable from that of
another person.

DNA Sample: a body tissue or fluid sample (blood, a buccal sample,
or semen, for example) that can be subjected to DNA analysis.

Examiner (Analyst): an individual who conducts or directs the
analysis of forensic casework samples, interprets data, and reaches
conclusions. In other words, the analyst is the person performing the
bulk of the DNA analysis work. The analyst’s qualifications are
governed by specific requirements as given in the QAS.

Hit: a confirmed match between two or more DNA profiles discovered
by CODIS software at a single instant in time. In other words, a hit is
a match between two or more profiles that the software finds when
profiles are searched against each other. A hit can occur when an
offender sample is matched to a sample from case evidence (forensic
sample), when a forensic sample is matched against a forensic sample
from another case, or a combination of these two.

Investigations Aided: the primary measuring unit that the FBI uses
to quantify the success of CODIS. An investigation is aided when a
DNA match through CODIS either identifies a potential suspect or links
crimes together, but only when the DNA match provides new
information that would not have been otherwise developed.

Loci: the plural form of locus.

Locus: a specific physical location on a chromosome. Analogous to
an address for a house.




                                  – 37 –
                                                     APPENDIX II
National DNA Index System (NDIS): the FBI-maintained national
component to CODIS. NDIS contains DNA profiles uploaded from
approved SDIS laboratories.

NFSTC: the National Forensic Science Technology Center provides
certifications of compliance with the Quality Assurance Standards. The
certifications are not the same as laboratory accreditation but are still
used as an indication of compliance by various organizations.

Restriction Fragment Length Polymorphism Analysis (RFLP): a
technique that uses probes to detect variation in a DNA sequence
according to differences in the length of DNA fragments that are
created using specific enzymes. These enzymes act like microscopic
scalpels and cut the DNA strands at specific points, producing
fragments that can be analyzed. The combination and number of base
repeats within each particular sequence determine the size of the
fragment and the differences among individuals. RFLP was used
predominantly by DNA laboratories until newer technology was
developed. This method can take as long as a couple of months to
obtain results if radioactive agents are used. Also, a sizeable amount
of good quality DNA is needed when using RFLP.

QAS: refers to the Quality Assurance Standards issued by the FBI
Director upon the recommendation of the DNA Advisory Board.
Quality Assurance refers to measures that are taken by labs to
monitor, verify, and document performance. Two sets of QAS exist:
QAS for Convicted Offender DNA Databasing Laboratories, effective
April 1, 1999; and QAS for Forensic DNA Testing Laboratories,
effective October 1, 1998.

SDIS: State DNA Index System containing the state-level DNA
records uploaded from local laboratory sites within the state. SDIS is
the state’s repository of DNA identification records and is under the
control of state authorities. The SDIS laboratory serves as the central
point of contact for access to NDIS.

Short Tandem Repeat Analysis (STR): refers to a DNA typing
method that utilizes a certain technology to quickly amplify and
analyze sections of DNA that contain short tandem repeats. This
method allows a high level of discrimination, since 13 loci (unique
locations or identifiers) are examined and subsequently compared with



                                 – 38 –
                                                  APPENDIX II
other samples. STR also requires considerably less effort and less DNA
than the RFLP technology. STR has been the standard typing method
for crime-scene samples, and has been declared the typing method for
all NDIS samples.




                               – 39 –
                                                   APPENDIX III
                       AUDIT CRITERIA

Federal Legislation

       CODIS was first described and authorized in the DNA
Identification Act of 1994 (Act). The Act, part of the Violent Crime
Control and Law Enforcement Act of 1994, authorized the FBI to
establish and maintain CODIS. That authorization limited records in
CODIS to those that are: based upon analyses meeting the FBI’s
quality assurance standards, prepared by labs undergoing external
proficiency testing every 180 days, and maintained by criminal justice
agencies that limit the disclosure of the information to approved
groups. Access to the national CODIS database is subject to
cancellation if these requirements are not met and penalties of up to
$100,000 can be assessed for unauthorized disclosure or receipt of
DNA samples/information. Each Program grantee signs a Statutory
Assurance Certification, stating that they will comply with the
provisions of the Act, which in turn means that they must require their
contractors to comply with the Act, since the contractors are doing the
actual DNA analysis work.

      The Act also established the DNA Advisory Board (DAB), an
entity that was to compose standards for quality assurance with which
CODIS-participating laboratories would have to comply and which the
Director of the FBI could then formally institute. The DAB produced
one of the key sources of our audit criteria, as described below.

Quality Assurance Standards

      A key source of criteria for our audits of the grantee and
contractor laboratories is the quality assurance standards
recommended by the DAB and formally instituted by the Director of
the FBI. Although two sets of standards have been instituted, only the
set specific to the analysis of convicted offender samples, the Offender
QAS, applies to our audits.

      The Offender QAS contains 130 elements, organized under 14
headings, of pertinence to our audits of the contractor laboratories.
Not included in this count are the six elements found under one




                                – 40 –
                                                  APPENDIX III
heading, which are only applicable to our audits of the grantee
laboratories. The remaining headings are as follows:

•    The Quality Assurance Program: one should exist in writing and
     should contain the required categories of standards. This section
     contains 15 elements.

•    Organization and Management: key roles and duties should be
     accounted for in writing, including the interrelation between the
     DNA analysis personnel. This section contains 4 elements.

•    Personnel: personnel filling key roles should be properly
     educated, trained, and should be performing duties appropriate
     to their position. This section contains 24 elements.

•    Facilities: the physical design of the laboratory and additional
     controls should ensure the integrity of laboratory security and
     minimize contamination. This section contains 6 elements.

•    Sample Control: the laboratory should have a documented
     control system and necessary internal controls to implement it,
     to ensure the integrity of the offender samples. This section
     contains 5 elements.

•    Validation: the laboratory should take the required steps to
     demonstrate (validate) that it and its analysts are capable of
     using certain equipment and methods properly. This section
     contains 8 elements.

•    Analytical Procedures: every procedure used by the laboratory
     in the DNA analysis process, including equipment and supplies
     required in the process, should be detailed in writing and
     formally approved by laboratory management. This section
     contains 19 elements.

•    Equipment Calibration and Maintenance: the laboratory should
     establish a written program for ensuring that equipment used for
     DNA analysis receives regular calibration and maintenance.
     Such calibration and maintenance should be clearly documented
     and be based upon independent national standards. This section
     contains 8 elements.




                                – 41 –
                                                   APPENDIX III
•     Reports: the laboratory should have written guidelines for
      maintaining documentation that would thoroughly support the
      conclusions made in a report regarding case evidence. Reports
      should contain certain specified information and written policies
      should exist to govern the release of such information. This
      section contains 2 elements.

•     Review: administrative and technical reviews should be
      conducted of all reports and supporting documentation for all
      evidence, to ensure the quality of the conclusions and supporting
      documentation. The testimony of analysts in court should also
      be reviewed. This section contains 3 elements.

•     Proficiency Testing: those actively engaged in DNA analysis
      should complete an external proficiency test (a test from an
      outside agency or commercial test provider that measures an
      analyst’s skill in performing DNA analysis correctly) every 180
      days. Such tests should be reviewed and documented as
      delineated in the Offender QAS. This section contains 16
      elements.

•     Corrective Action: written procedures should exist that govern
      documentation and resolution of errors made during DNA
      analysis or a proficiency test. This section contains 2 elements.

•     Audits: the laboratory should undergo an audit every year, and
      at least every other year this audit should be conducted by an
      external entity. This section contains 17 elements.

•     Safety: the laboratory should have and follow a written
      environmental health and safety plan (1 element).

      The Offender QAS contains six elements found under one
heading, titled “Subcontractor of Analytical Testing for which Validated
Procedures Exist,” of pertinence to our audits of the grantee
laboratories. Among more general requirements, the elements specify
on-site visits, random re-analysis of samples, inclusion of quality
control samples, and visual inspection of data returned by the
contractor.




                                 – 42 –
                                                    APPENDIX III
Program Grant Solicitation

      The grant solicitation issued by OJP serves as another source of
audit criteria for our audits of the eight grantee laboratories. Per the
grant solicitation, Program grantee states were required to:

•     select a contractor laboratory that is accredited by ASCLD/LAB
      (see glossary) or certified by NFSTC (see glossary), select a
      contractor laboratory in accordance with state procurement
      policies, and select a contractor laboratory within 120 days of
      the award of the grant;

•     file timely (a) Financial Status Reports, (b) Progress Reports,
      (c) a quality control results report, and (d) reports of hits
      generated from offender and no-suspect samples analyzed under
      the grant;

•     comply with the section of the Offender QAS addressing
      oversight of a sub-contractor;

•     require the regular receipt of samples from the contractor
      laboratory (every 30 days);

•     require the contractor laboratory to provide data for all 13 core
      STR loci in common computer language; and

•     analyze no-suspect cases equal to 1 percent of the offender
      samples that the grant paid to have analyzed.




                                 – 43 –
                                                             APPENDIX IV
        FACTORS INFLUENCING THE BACKLOG
      According to FBI personnel, state and local laboratory
management,17 and the National Commission on the Future of DNA
Evidence, several major factors have influenced the productivity of
DNA laboratories across the country. Consequently, if a laboratory’s
productivity cannot keep pace with analysis demand, a backlog of
samples awaiting analysis occurs. The following list focuses on those
general factors that affect a laboratory’s ability to analyze incoming
offender samples.

DNA Technology

      Three different DNA processing methods have been available to
DNA laboratories: the Dot Blot method, the Restriction Fragment
Length Polymorphism (RFLP) method, and the Short Tandem Repeat
(STR) method. All these methods work on a similar principle - the
process focuses on areas of the DNA that are very different from one
person to the next. These areas are considered junk DNA because
they do not “code” for anything (i.e., the DNA does not translate into a
personal identifying characteristic like “blue eyes” or into a genetic
predisposition for disease).

      The Dot Blot method is the least discriminating of the three
methods. The results of the method are not used for comparison in
CODIS databases, and therefore, no further information is included on
this method.

      The RFLP method is very discriminating but requires large
amounts of good quality DNA and is the most time-consuming
method; therefore, laboratories using this method will not have the
same productivity level as a laboratory using STR. The RFLP process
basically takes a DNA strand, looks for a certain combination of
molecules on that strand, cuts the strand at that spot (locus), and


17
       Interviews with FBI personnel and state and local laboratory management
were conducted during the OIG internal audit of The Combined DNA Index System,
Report No. 01-26. In addition, auditor observation during the eight CODIS
Laboratory Audits conducted as a part of that internal audit were factored into the
points that follow.




                                      – 44 –
                                                      APPENDIX IV
then measures the length of the resulting fragments. A DNA strand
looks like a ladder and RFLP measures the fragments by counting how
many “rungs of the ladder” (called base-pairs) are in each fragment.
Each person has these loci, but the variation between people is the
length of the fragments.

      The STR method is also very discriminating, but unlike RFLP can
use small amounts of DNA and degraded DNA. In addition, the STR
method can be done in a matter of days rather than weeks. The STR
process is similar to RFLP, but the loci it looks at are different and the
measuring unit it uses is different. STR looks for sections of repeating
combinations of molecules, cuts the strand after the section of repeats,
and then measures how many repeats were in that section.

      Unfortunately, the results from RFLP analysis and the results
from STR analysis are not compatible. Therefore, laboratories that
have a well-established RFLP program and switch to STR face the
trouble of not only getting different equipment and materials, perhaps
changing the layout of their laboratories, and re-training all their staff,
but also face the daunting task of performing STR analysis on all the
DNA samples previously tested with RFLP.

      Therefore, a laboratory’s productivity and ability to deal with
incoming convicted offender samples will depend greatly upon which
method the laboratory has been using and whether that laboratory had
to switch from RFLP to STR.

Potential Resource Issues

      A laboratory’s ability to keep pace with incoming convicted
offender samples is greatly affected by resource issues. Examples of
resource issues include:

•     Manufacturers: If the manufacturers of equipment and supplies
      cannot provide the items a laboratory needs, then the laboratory
      is delayed in developing new or enhanced analysis capabilities
      and can be prevented from analyzing as many samples.

•     Funding: The funding received by a laboratory is often
      proportional to the priority state and local legislators place on
      DNA activity. In addition, legislatures in many states have



                                  – 45 –
                                                     APPENDIX IV
      passed “unfunded mandates” (i.e., a law that requires the
      implementation of a convicted offender database without
      providing funding for that implementation).

•     Personnel: The forensic applications of DNA science are
      relatively recent, and consequently the forensic DNA community
      is fairly small. Personnel that meet the education and
      experience requirements for certain positions are in high demand
      and can be difficult to find and keep. Consequently, productivity
      can be greatly influenced by personnel issues.

State Legislation

      State legislation issues are discussed in detail in the Introduction
section of this report, and unfunded mandates are covered by the
Funding section above. These legislative issues combine to provide a
challenging environment in which convicted offender databasing
laboratories must work, and an environment that may not permit a
productivity level that keeps pace with incoming samples.

Role of Sample Collection Agencies

       Various agencies external to the laboratory are often charged by
the legislation to oversee the collection of the convicted offender
samples and the safe transfer of those samples to the possession of
the laboratory. These agencies can include prison facilities, local jails,
sheriff’s departments, and probation and parole offices. These
external agencies face similar hurdles as the laboratory, including
limited resources, unfunded mandates, and political issues. Also, the
collection process makes the laboratories dependent on accuracy and
thoroughness on the part of these external agencies. The collection
agencies must ensure that the correct people are giving samples and
that full and accurate identifying and criminal history information is
sent to the laboratory with the sample.




                                  – 46 –
                                                           APPENDIX V



OIG Comment: OJP’s response included two attachments that have been omitted.
See Appendix VI for additional information.




                                   – 47 –
         APPENDIX V




– 48 –
         APPENDIX V




– 49 –
                                                    APPENDIX VI

       OFFICE OF THE INSPECTOR GENERAL
                AUDIT DIVISION
      ANALYSIS AND SUMMARY OF ACTIONS
         NECESSARY TO CLOSE REPORT
       The OJP response to our draft report appears in Appendix V and
includes the actions OJP had taken or intended to take to close the
audit recommendations. The response included two attachments,
entitled: (1) Performance Measurement Table, and (2) Document
Tracking Worksheet. Because the response included sufficient detail to
address our recommendations, we did not include the attachments in
this report.

      The status of the individual recommendations is as follows.

1. Closed.

2. Resolved. OJP stated in its response that it had changed its
   business practices with regard to grantee submission of progress
   reports and that it will withhold grant payment requests if progress
   reports are delinquent. OJP also stated that it intends to revise the
   OJP Financial Guide to reflect these changes in its next update
   expected in May 2002. Further, NIJ plans to supplement OJP’s
   written procedures with their own internal written procedures for
   following up on delinquent progress reports and resolving issues
   with grantees that fail to comply with grant requirements. This
   recommendation can be closed when we receive copies of the
   revised OJP Financial Guide and of the internal written procedures
   developed by NIJ.




                                 – 50 –
